CERTIFICATE OF SERVICE
No.
John Henry Ryskamp,
Petitioner,
vs.
Commissioner of Internal Revenue,
Respondent.
Pursuant to 28 U.S.C. ยง 1746,1 John Henry Ryskamp, declare as follows:
On January 6, 2020,1 served 3 copies of the Petition for Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit, on each of the following:
Kenneth Rosenberg
U.S. Dept, of Justice
Tax Division, Appellate Section
Room 4625
PO Box 502
Washington, D.C. 20044
in his capacity as counsel for Respondent Commissioner of Internal Revenue, and
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
by placing said copies in the United States mail in Berkeley, California, first class postage
applied thereon and addressed as stated above.
I declare under penalty of peijury that the above is true and correct, and that this Certificate was
executed in Berkeley, California, on January 6, 2020.

John Henry Ryskamp
1677 Arch St.
Berkeley, CA 94709
510 8486898
philneo2001 @yahoo. com

RECEIVED
JAN 1 2 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

